<html>
<title> - AL-SHABAAB: HOW GREAT A THREAT?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    AL-SHABAAB: HOW GREAT A THREAT?

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 3, 2013

                               __________

                           Serial No. 113-86

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
85-104                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a7d6a755a796f696e727f766a3479757734">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Seth Jones, Ph.D., associate director, International Security and 
  Defense Policy Center, RAND Corporation........................     6
Mr. Dan Borelli, chief operating officer, The Soufan Group.......    16
Mr. Mohamed Farah, executive director, Ka Joog...................    21
Mr. Richard Downie, deputy director and fellow, Africa Program, 
  Center for Strategic and International Studies.................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Seth Jones, Ph.D.: Prepared statement............................     8
Mr. Dan Borelli: Prepared statement..............................    18
Mr. Mohamed Farah: Prepared statement............................    23
Mr. Richard Downie: Prepared statement...........................    26

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61


                    AL-SHABAAB: HOW GREAT A THREAT?

                              ----------                              


                       THURSDAY, OCTOBER 3, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order at this 
time.
    Today we are going to meet to assess the threat--I will 
just ask all members to take their seats at this time.
    Today we are going to discuss the threat from al-Shabaab, 
which is al-Qaeda's franchise in the Horn of Africa. We are 
going to discuss the threat that it poses to Somalia, the 
threat to the Horn of Africa, to the region, and the threat 
that it poses to the West, including the United States.
    Al-Shabaab translates to ``the youth.'' And that 
organization officially swore allegiance, if you will recall, 
last year in February to al-Qaeda, but the leadership for many 
years of al-Shabaab had been working closely with Osama bin 
Laden, and as a consequence, the roots there are very deep.
    Al-Shabaab has been primarily focused in the past on 
attacking the young Somali Government because the focus on al-
Shabaab was the establishment of a very extreme form of Sharia 
in Somalia. And they continued their attacks on African 
peacekeepers that came into that region that were working to 
secure that country.
    But this is changing, this is evolving. And the dramatic 
attack on September 21st on the Westgate shopping mall in 
Nairobi, Kenya, demonstrates al-Shabaab's ability and 
demonstrates their desire to threaten civilians throughout East 
Africa. And in this plot, you had 70 killed, you had over 200 
injured. It is very common knowledge, if you are going to 
attack a mall, most of the adults in a mall, over 70 percent, 
are usually female, and many of them are going to have children 
with them. So this planned attack obviously was focused on 
maximizing the psychological damage. Several Americans also 
were wounded there, as you might know.
    And this is not the first time that this group has carried 
out this type of deadly attack in the region. If you will 
recall the attack in Uganda, July 2010, there were a series of 
bombings against civilians watching the first World Cup match 
in Kampala, Uganda. Seventy-four were killed there by al-
Shabaab, many more injured, including, by the way, one American 
killed there. Today we are joined by the FBI agent who lead the 
Bureau's investigation into that deadly al-Shabaab attack in 
Uganda.
    Last year, about a quarter of al-Shabaab's attacks took 
place in Kenya, so that is a significant increase. For al-
Shabaab, these attacks are retribution for a neighboring 
country's contribution of troops to the U.N.-authorized African 
Union peacekeeping mission in Somalia. This peacekeeping 
effort, which has made great strides, has been strongly backed 
by the United States, by the African Union, by the European 
Union.
    Of considerable concern, al-Shabaab has demonstrated a 
unique ability to recruit young members of the Somali diaspora 
community in Europe and in the United States and convince them 
to travel to Somalia, convince them to join the fight. U.S. 
Africa Command suggests that these foreign fighters, in their 
words, ``remain the greatest threat to Western interests 
regionally and internationally.''
    One witness today called the United States a ``primary 
exporter of Western fighters to the al-Qaeda-affiliated 
group.'' Indeed, one of the first Americans to become a suicide 
bomber carried out his attack in Somalia. Online videos that 
are shown here in the United States and shown in the West, 
shown in Britain, promise potential recruits a glamorous new 
life. And we will hear today about one effort in the Somali-
American community to counter such propaganda and recruitment.
    Needless to say, we need to be on top of this al-Qaeda-
aligned group's reach into the U.S. Al-Qaeda leadership 
recently encouraged sympathizers in the United States to carry 
out smaller but still deadly attacks as individuals or in teams 
of two or three. And such strikes on U.S. soil could be similar 
to the one al-Shabaab launched.
    Al-Qaeda elements have proven their ability to inspire and 
to train attackers, and they have done this primarily over the 
Internet, as demonstrated by the Boston Marathon bombers and 
the Fort Hood shooter.
    Two years ago, when Dr. Jones first appeared before the 
Terrorism Subcommittee that I chaired at the time to discuss 
the future of al-Qaeda, we discussed al-Shabaab. And, at that 
time, the head of Britain's MI-5 was warning that, in his 
words, ``It is only a matter of time before we see terrorism on 
our streets inspired by those who are today fighting alongside 
al-Shabaab.'' That was the British view at the time.
    Given our support for the African peacekeeping mission and 
the fact that the U.S. remains a top al-Qaeda target, we need 
to get ahead of al-Shabaab's efforts to radicalize vulnerable 
youth. And we need to do that before that statement applies to 
streets in the West.
    So I will now turn to our ranking member, Mr. Eliot Engel 
from New York, for his opening remarks.
    Mr. Engel. Good morning, Mr. Chairman, and thank you for 
holding this hearing.
    And welcome to our panelists.
    We are here today to discuss al-Shabaab, a Somalia-based 
terrorist organization that continues to threaten the Horn of 
Africa and Western interests there.
    Two weeks ago, as you mentioned, Mr. Chairman, a group of 
heavily armed terrorists stormed the Westgate Mall in Nairobi, 
Kenya, intent on killing innocent civilians. Al-Shabaab claimed 
responsibility for the heinous attack as punishment for Kenya's 
involvement in the AU mission there. After a 4-day siege, the 
attackers were finally overpowered, but not before murdering at 
least 67 men, women, and children. Among them was the wife of a 
U.S. Foreign Service national, who was 7 months pregnant.
    While attacks by al-Shabaab in Kenya are not new, the 
Westgate Mall attack was particularly ruthless. It was the 
worst terrorist attack Kenya has seen since the 1998 al-Qaeda 
bombing of the U.S. Embassy. And it raises important questions 
for Kenya, the international community, and Members of 
Congress, as well, about al-Shabaab's size, strength, and 
intentions.
    For many years, al-Shabaab controlled most of Somalia and 
imposed a brutal form of Sharia law. As just one illustration 
of their complete disregard for human life, al-Shabaab banned 
most international organizations from gaining access to large 
parts of the country during the devastating famine in 2011, 
leading to the deaths of thousands of Somalis.
    In late 2011, Kenyan forces joined AMISOM, the African 
Union mission to Somalia, and helped to finally turn the tide 
against al-Shabaab. AMISOM has had a number of successes 
against al-Shabaab, first by expelling the group from Mogadishu 
and later from Kismayo, a port that had provided a significant 
source of revenue for the terrorist group.
    Despite these successes, it seems that AMISOM has reached 
its physical limit of expansion in Somalia. While al-Shabaab 
has been deprived of valuable territory, it continues to cause 
military and civilian casualties inside Somalia with new 
guerilla tactics. And now we have this brazen attack by the 
group in Kenya's capital.
    All of this must lead us to ask, is al-Shabaab as weak as 
we thought it was? Can we expect more attacks of this scale in 
Kenya and possibly other countries contributing to AMISOM, such 
as Uganda? Have internal struggles in al-Shabaab made the group 
more focused on global jihad today than in the past?
    I understand that it is difficult to say anything 
definitive about an organization as shadowy as al-Shabaab, but 
given this latest attack, I believe we must reexamine what we 
thought we knew about the organization.
    Finally, I would like to take a moment to highlight the 
significance of the very large Somali refugee population in 
Kenya, which represents another facet of this complex picture. 
After decades of war and instability in Somalia, it is not 
surprising that there are nearly between 1 million and 2 
million Somalis living in Kenya today.
    It will be tempting for the Kenyan people in government to 
blame Somalia for their insecurity and call for Somali refugees 
to be sent home. I sincerely hope it does not come to this. 
Kenya has long been one of the world's most generous host 
countries. The fact that the Dadaab refugee camp constitutes 
the second-largest city in the entire country is evidence of 
this. I hope Kenya will continue to provide a safe haven to 
those fleeing from violence, hunger, and constant fear.
    I mention this not only because of the humanitarian 
implications but also because it has a very real bearing on al-
Shabaab's ability to grow its network, recruit, and operate in 
Kenya. I think it will be valuable to hear from our panelists 
on what they think Kenya can do with respect to its Somali 
community that would help impair al-Shabaab's operations and, 
conversely, what actions could make the terrorist threat even 
worse.
    So I would like to thank the chairman once again for 
holding this hearing, and I look forward to the testimony of 
our witnesses.
    I yield back, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    We will go now to Mr. Chris Smith of New Jersey for 1 
minute. He is the Africa Subcommittee chair.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Mr. Chairman, last week, staff director Greg Simpkins and I 
were in Jos, Nigeria, and heard from Christians who were 
survivors of fire bombings and a murderous campaign by Boko 
Haram, a sister-type organization to al-Shabaab.
    We need to recognize more fully, I believe, the threat 
posed by these cowards, these terrorists, who are slaughtering 
people. And, as we all know, the reason why the Kenyans were 
targeted is because they have deployed peacekeepers to try to 
bring some kind of peace and stability to Somalia, which has 
suffered for so long under the grip of al-Shabaab.
    I would point out that there was a statement made by al-
Shabaab pointing out that they will intensify. ``We will strike 
Kenyans where it hurts, turn their cities into graveyards and 
rivers of blood,'' which they say will flow in Nairobi.
    To its credit, Kenya has not turned and run. Strongly, 
Kenya's President Uhuru Kenyatta has said, we will not be 
intimidated, we will not be cowed. And he talked about keeping 
his peacekeepers on the ground to try to bring some semblance 
to that war-torn country. We need to stand in solidarity with 
the Kenyans, Ugandans, who we all recall, just few years ago, 
while people were watching the World Cup, were slaughtered by 
al-Shabaab because Uganda had deployed peacekeepers as well.
    So we need to do more to support this, because this growing 
intolerance, this hatred, is spreading throughout Africa. Boko 
Haram, al-Shabaab, they have to be defeated.
    Chairman Royce. We go now to Karen Bass of California, 
ranking member of the Africa Subcommittee.
    Ms. Bass. Thank you very much. I want to thank the chair 
and the ranking member for holding this hearing today.
    The crisis at the Westgate Mall is deeply troubling and 
represents a serious security concern to East Africa, our 
partners, and, by extension, our country. While al-Shabaab has 
been significantly handicapped by counterterrorism activities 
carried out by the African Union mission in Somalia and with 
support from our military, the events of last month are a cold 
reminder that we can't lose focus in preventing and eliminating 
terrorist elements throughout the continent.
    I want to remind my colleagues that, while we are here to 
address al-Shabaab, there are similar concerns in West Africa 
that also require our attention. These groups are destabilizing 
factors on a continent that is, in fact, becoming more stable, 
peaceful, and is increasingly a target for economic investment.
    I also want to mention that on the news this morning I saw 
that al-Shabaab essentially has initiated another threat, 
saying that they intend to go back into Kenya. And I really 
hope that our witnesses have an opportunity to address this.
    Thank you.
    Chairman Royce. Thank you.
    We will go now to Judge Ted Poe of Texas, chairman of the 
Terrorism Subcommittee, for 1 minute.
    Mr. Poe. While the attack on the Westgate Mall in Kenya was 
ongoing, the terrorist group responsible, al-Shabaab, was 
sending out tweets. Twitter knew about the al-Shabaab account a 
year before the attack, but Twitter refused to take it down. 
Unlike Facebook and YouTube that go after these terrorist 
sites, Twitter wants the FBI to tell them when to take down a 
particular site, and, apparently, the FBI remained silent for 
various reasons.
    It is against U.S. law to support terrorists, and Twitter 
claims it doesn't allow terrorists to use the Twitter account. 
Twitter says that it has no way of knowing if an account is run 
by a terrorist group or not, but Twitter also has a rule, you 
can't claim to have a false identity on Twitter. So, either 
way, Twitter should be taking down terrorists accounts. Either 
the terrorist group really is operating the account or it is 
not and somebody is misrepresenting it.
    It is time for Twitter to stop violating U.S. law and 
giving terrorists a free way to release their propaganda and 
hate to the world. I look for some answers today.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Poe.
    This morning, we are joined by a distinguished panel to 
address this issue.
    We have Dr. Seth Jones back, associate director at RAND 
Corporation's International Security and Defense Policy Center. 
Dr. Jones specializes in counterinsurgency and 
counterterrorism, with a particular focus on al-Qaeda.
    We also have Mr. Don Borelli, chief operating officer of 
The Soufan Group, a 25-year veteran of the FBI, former special 
agent in charge of the Joint Terrorism Task Force in New York. 
Mr. Borelli's work at the FBI included investigations and 
research related to al-Shabaab, including leading the 
investigation of al-Shabaab's 2010 World Cup bombing.
    Mr. Mohamed Farah is the executive director of Ka Joog, 
which means ``stay away,'' a Somali-American youth organization 
working to counter the negative influences of groups like al-
Shabaab in Somali communities in the United States. Mr. Farah 
has been on the front lines of his community's counter-
radicalization efforts and was given the FBI Director's 
Community Leadership Award in 2012.
    Richard Downie is the deputy director of the Africa program 
at the Center for Strategic and International Studies. Mr. 
Downie analyzes emerging political, economic, social, and 
security trends in Africa, with a particular focus on sources 
of instability on the subcontinent.
    Without objection, the witnesses' full prepared statements 
will be made part of the record, and members may have 5 days to 
submit statements and questions and any extraneous material 
they want to put in for the record.
    And we will ask all of our witnesses, of course, to 
summarize their testimony to 5 minutes, if you would.
    And, Dr. Jones, we are going to begin with you.

      STATEMENT OF SETH JONES, PH.D., ASSOCIATE DIRECTOR, 
    INTERNATIONAL SECURITY AND DEFENSE POLICY CENTER, RAND 
                          CORPORATION

    Mr. Jones. Thank you very much, Chairman Royce, Ranking 
Member Engel, and members of the committee. Thanks for inviting 
me and us in general to testify at this hearing, ``Al-Shabaab: 
How Great a Threat?''
    As those of you who just spoke noted, the al-Shabaab attack 
at Westgate Mall and its follow-up attacks--because it 
conducted attacks later in and around the Kenya-Somali border--
are a stark reminder that this Somali-based group, an al-Qaeda 
affiliate, remains lethal. Despite some losses--it has been 
pushed out of Mogadishu, the Somali capital, and Kismayo, a 
logistical hub for the group--the group does present, in my 
view, a significant terrorism threat in the region, including 
to United States Embassies and citizens in East Africa, the 
Horn, and potentially in other areas.
    At the moment, it is my judgment that al-Shabaab does not 
appear to be plotting attacks against the U.S. homeland, 
certainly not to the degree that an organization like al-Qaeda 
in the Arabian Peninsula in Yemen. But there are several 
reasons, in my view, why America should be concerned about al-
Shabaab and recent developments.
    First, as we saw with the Westgate attack, al-Shabaab does 
have a competent external operations capability. The Westgate 
Mall attack was well-planned, well-executed, involved 
impressive intelligence collection, surveillance, 
reconnaissance of the target. It had operatives prepared to ask 
a range of questions to individuals before killing them or 
letting them go inside the mall. These skills obviously could 
be used to attack the United States and its interests in that 
region.
    Second, al-Shabaab officials have expressed an interest in 
targeting U.S. and other foreign targets in East Africa. They 
have also planned to kidnap Americans and other foreigners in 
the region. They have plotted attacks against malls, 
supermarkets, Embassies. Obviously, the U.S. Embassy was struck 
in 1998 by al-Qaeda in the same country.
    Third, and perhaps most concerning, Americans from cities 
like Phoenix and Minneapolis over the past several years have 
traveled to Somalia to fight with al-Shabaab. We have had a 
number of suicide bombers. Other American cities--Boston; 
Seattle; Washington; San Diego; Columbus; Lewiston, Maine--have 
seen individuals either recruited or left for Somalia.
    Now, the FBI and law enforcement in a range of these cities 
have done an effective job over the past several years of 
wrapping up a number of these individuals. But the ability of 
the group to recruit in these areas, in particular reach out to 
individuals through social media, does pose a concern.
    Based on an examination of counterterrorism efforts against 
al-Qaeda more broadly since its establishment in 1988, I would 
suggest the U.S. consider several steps to help weaken al-
Shabaab in this region, including, more broadly, in the United 
States.
    But in the region, the first is implementing what I would 
call a light footprint strategy that focuses on covert 
intelligence, law enforcement, clandestine, special operations 
forces--I covered al-Shabaab somewhat when I was in U.S. 
special operations--and then diplomatic efforts to work with 
the Somali Government and its neighbors, the good case, I 
think, of working with the Somali Government and its neighbors, 
such as Kenya and Ethiopia, in their efforts to counter al-
Shabaab in its financial logistics and other networks in the 
region and in Somalia itself.
    This means, just to be clear about this, in my view, the 
United States should not consider and should certainly not 
deploy conventional U.S. forces to Somalia. Again, I think this 
is a good case of working with the Somali Government and local 
governments in the region to take the lead in this effort. The 
U.S. role should be what I would call a light footprint. I 
would be happy to spend more time talking about that.
    The second issue, and one that I think we have not done a 
particularly good job, is to aggressively undermine al-Shabaab 
and al-Qaeda's, more broadly, extremist ideology. For al-
Shabaab, the struggle to overthrow the Somali Government and 
establish an extreme version of Sharia is just as much an 
ideological as it is a military struggle.
    The U.S. over the past 2 decades has done things like 
disbanded the U.S. Information Agency. In my view, we have a 
very disjointed information campaign among multiple agencies. I 
think when we saw really one of the most effective efforts 
against the Soviet Union in the cold war, done, among others, 
by Ronald Reagan, it was a substantially increased overt and 
covert effort to combat the Soviet Union's ideology. Again, I 
think we are weak here.
    Let me just close briefly with a statement from al-Qaeda 
leader Ayman al-Zawahiri back in 2005: ``I say to you that we 
are in a battle, and more than half of this battle is in the 
battle of the media, and that we are in a media battle in a 
race for the hearts and minds of our umma.''
    In conclusion, members of the committee, I would just like 
to highlight that al-Qaeda realizes this is an ideological 
battle.
    Chairman Royce. Thank you.
    [The prepared statement of Mr. Jones follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Let's go now to Mr. Borelli.

  STATEMENT OF MR. DAN BORELLI, CHIEF OPERATING OFFICER, THE 
                          SOUFAN GROUP

    Mr. Borelli. Mr. Chairman, distinguished members of this 
committee, thank you for the opportunity to speak before you 
today on such an important topic.
    As mentioned, I am a 25-year veteran of the FBI. My last 
position was assistant special agent in charge of the Joint 
Terrorism Task Force in New York. In that position, I was 
responsible for FBI international terrorism matters, including 
those involving Africa, and I led the team of more than 60 FBI 
agents to Kampala, Uganda, in July 2010 to investigate the 
simultaneous suicide bombing attacks during the World Cup 
soccer game, which was conducted by al-Shabaab. So I have 
firsthand experience in dealing with the atrocities committed 
by this terrorist group.
    Since leaving the FBI, as COO of The Soufan Group I have 
helped oversee our countering violent extremism, or CVE, 
research, including a recent study into countering the 
narratives of violent extremism. And I led our team to 
Minnesota, Kenya, and Uganda, focusing our research on al-
Shabaab. I personally interview policymakers, community 
leaders, security officials, and young people in the cross-
hairs of al-Shabaab recruiters. And that is what I would like 
to focus on today, is al-Shabaab's recruitment efforts, 
particularly those involving Western youth.
    It is important to note that al-Shabaab--their political 
agenda is divided into different factions: The nationalist 
agenda, which aims to fight against foreign troops in Somalia 
and to install a Sharia-based government in Somalia; and the 
global jihad agenda, aligned with al-Qaeda and focusing its 
efforts against the West and its allies.
    This division of ideals within al-Shabaab is also reflected 
in al-Shabaab's recruiting efforts. The narrative of the 
nationalist agenda uses reports of violence in Somalia, along 
with a compelling combination of propaganda that appeal to a 
sense of obligation to defend Somalia from foreign invaders. 
The global agenda is in line with the broader al-Qaeda message, 
claiming that the West is at war with Islam.
    After speaking with many members of the Somali-American 
community in Minnesota, we found that the narrative that 
resonates loudest with Somali youth is overwhelmingly political 
as opposed to religious. It focuses on the nationalist agenda 
and is driven by a deep nationalist concern for the future of 
Somalia.
    However, just because a young person might be enticed to 
join al-Shabaab to defend his Somali homeland doesn't mean that 
he isn't a threat to the U.S. Our fear is that, while Somalis 
here in the U.S. may travel to Somalia with a nationalist 
agenda to defend Somalia, they could be converted into 
following the global agenda, the al-Qaeda agenda, and return to 
the U.S. to launch attacks here.
    We have seen this pattern with other communities. The 
thwarted attack against the New York Subway system in 2009 
illustrates this threat. Najibullah Zazi, an Afghan who 
traveled back to his homeland with the idea of fighting there, 
was co-opted by al-Qaeda and convinced he could do more good by 
taking the fight back to the U.S.
    So what, therefore, can we do to mitigate this threat and 
counter al-Shabaab's recruiting tactics both here in the U.S. 
and abroad? Our strategy needs to be multifaceted. We need to 
continue to put pressure on al-Shabaab through military, law 
enforcement, intelligence, and economic resources. We need to 
expand our efforts in promoting education and critical thinking 
among would-be recruits for terrorist groups.
    As we have seen in Minnesota, many who join al-Shabaab to 
help their Somali homeland, they need to understand that al-
Shabaab is not helping their homeland. Rather, it is committing 
atrocities against its own people. Potentially vulnerable 
recruits need to see how they are being manipulated by al-
Shabaab. They need to understand that al-Shabaab will turn 
their attentions to help Somalia into a global terrorist agenda 
that aims to export violence and kill innocent people.
    How do we do this? We need to understand that extremists 
use local grievances as initial motivators to recruit, so the 
counter-narrative must take place at the local level. And we 
need to be very strategic in the medium, the message, and the 
messenger we use. Our focus should be on helping credible 
voices in the community counter the message of violent jihad 
offered by al-Shabaab, al-Qaeda, and the like.
    And the Internet needs to be an integral part of this 
strategy. As we have recently seen, al-Shabaab was bragging on 
Twitter about the attack on the Westgate Mall. We need to be 
just as effective using the Internet, if not more so.
    Lastly, we must not make the same mistake with al-Shabaab 
that we did with al-Qaeda, and that is viewing it as only a 
local or regional threat. In the early 1990s, many smart people 
ignored al-Qaeda because it was seen as a group only focused on 
the Middle East and Central Asia. We have seen how a terrorist 
organization gone unchecked can morph into a global threat. We 
must not let that happen with al-Shabaab.
    I look forward to expanding on these points and others 
during the question-and-answer period.
    Chairman Royce. Thank you, Mr. Borelli.
    [The prepared statement of Mr. Borelli follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Mr. Farah?

  STATEMENT OF MR. MOHAMED FARAH, EXECUTIVE DIRECTOR, KA JOOG

    Mr. Farah. Bismillah, ir-Rahman, ir-Rahim. In the name of 
Allah, the most gracious, the most merciful.
    Mr. Chairman, members of the committee, I would like to 
thank you for the invitation to talk about this important 
matter. Our community stands in solidarity with the people of 
Kenya and the folks that lost their loved ones in the recent 
attacks a week ago.
    My name is Mohamed Farah. I am the executive director of Ka 
Joog. I am here today as a concerned citizen of this great 
Nation and on behalf of the largest Somali-American youth 
organization in the United States.
    Ka Joog was formed in 2007 by a dozen students from high-
school-level to college-level students who had few things in 
common, such as education, art, positive role models in the 
community, and proud citizens of a country with limitless 
opportunity for those who are willing to work hard.
    The term ``Ka Joog'' means to stay away or stay out, and 
the message behind that is to get youth away from any negative 
influences that hinders their success or reaching their best 
potential.
    We are all wondering the same thing in this room this 
morning: How is it that American youth can succumb to radical 
recruitment? Sure, any of us today sitting here would not dream 
of strapping explosives on, let alone even fight alongside 
extremists for whatever overly glorified cause. But why? 
Because we have all been educated, well educated, to understand 
that our human potential is worth far more than an explosive 
vest and that our human purpose transcends the murderous agenda 
of extremists. The number-one issue of our community is the 
recruitment of our youth.
    As Americans, we must constantly assure ourselves that 
these attempts made by al-Shabaab and their affiliate entities 
are acts of desperation. Religious scholars have already 
denounced their claim to legitimacy in the light of Islam. At 
this particular point, the veil slowly has been lifting to 
reveal the true agenda and political intent of this extremist 
group.
    We shall no longer be the victim of their terror. We shall 
no longer let their actions affect our children. And, most 
certainly, we shall not generalize by the actions of a few 
individuals who have tainted the name of the Somali people 
across this great Nation.
    Al-Shabaab has taken every possible measure in full 
capacity to cloak their ideology with an appealing message to 
our youth. They have targeted the disenfranchised, 
marginalized, and socially estranged youth with a message of 
restitution infused with religious righteousness. Those young 
men that left victim to deception are no longer with us today, 
and thus will be the same fate of so many more youth unless we 
act swiftly. Why is it that we spend millions of dollars on 
counterterrorism and still American citizens are disappearing 
and fighting alongside with al-Shabaab?
    In conclusion, I would like to thank you for the time to 
address this concern. I would like to finish by saying that 
this is an uphill battle, that we must call on the cooperation 
of all agencies, communities, and organizations who share a 
vested interest in the safety of our youth and who wish to 
seize the efforts of extremist entities. We must empower local 
partners to be more adequately equipped to deter youth from 
becoming radicalized and recruited.
    Ka Joog and the rest of our community lack the vital 
resources--I will repeat again: Ka Joog and the rest of our 
community lack the vital resources to safeguard our children 
and, most importantly, to safeguard our freedoms here in the 
United States of America. Ka Joog and the community has been 
fighting since 2007, and I urge you, this committee and our 
Federal Government, my Government, to stand with us to fight 
al-Shabaab and eliminate this cancerous ideology and take this 
fight to Somalia.
    Chairman Royce. Thank you. Thank you, Mr. Farah, very much.
    [The prepared statement of Mr. Farah follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. And we will go now to Mr. Downie.

 STATEMENT OF MR. RICHARD DOWNIE, DEPUTY DIRECTOR AND FELLOW, 
 AFRICA PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Downie. Chairman Royce, Ranking Member Engel, and 
distinguished members of the committee, thank you for the 
opportunity to testify on the threat posed by al-Shabaab.
    I will make some brief remarks about the evolution of this 
terrorist group, its current capabilities and objectives, and 
offer some thoughts on how its threats can best be dealt with 
by the United States and its allies in East Africa.
    Al-Shabaab is a fragmented group representing different 
interests and objectives. It began as the armed wing of a 
broader Islamist movement which briefly governed parts of 
Somalia before it was toppled by invading troops from Ethiopia 
in 2006. It gained popularity by presenting itself as a 
nationalist movement protecting Somalis from foreign 
aggression. Pragmatists within its ranks were quick to spot 
business opportunities as the group took more territory. Many 
of its foot soldiers tagged along in the hope of a meal or were 
coerced to join.
    But there has always been a faction within al-Shabaab that 
has harbored grander ambitions of waging international jihad. 
This faction now has control and has been strengthening its 
ties with al-Qaeda.
    The Westgate attack reflects this group's ascendancy. Its 
leader, Ahmed Godane, said the aim was to avenge Kenya for its 
invasion and occupation of southern Somalia, launched 2 years 
ago to push back chronic instability from the two countries' 
shared border. Al-Shabaab had a similar motive when it staged 
bomb attacks in Uganda in 2010. Uganda is the largest 
contributor to the African Union's peacekeeping force in 
Somalia.
    But the targeting of the Westgate, a shopping mall packed 
with families from around the world, shows that al-Shabaab 
wished to make a broader statement, not only to the countries 
in the region but also to the Western allies which support 
them.
    There are some key points to bear in mind about the attack.
    First, we should be wary of using Westgate to draw broader 
conclusions about the risk posed by al-Shabaab to the U.S. 
homeland. The threat level is not substantially or necessarily 
changed by events in Nairobi, more than 7,000 miles away.
    The most alarming aspect of Westgate is that al-Shabaab 
has, from its perspective, scored a big hit with relative ease. 
It has realized that all it needs is a soft target, good 
planning, low-tech weaponry, plenty of ammunition, and 
determined attackers willing to die for their cause. We should 
expect attempts to repeat this method of attack.
    The Westgate attack also continues the operational shift of 
al-Shabaab toward an international agenda that aligns more 
closely with al-Qaeda. It is therefore more likely to look for 
targets beyond Somalia's borders and seek opportunities to team 
up with like-minded groups in the broader region. There are 
suggestions, for example, that the Westgate attack may have 
been carried out with the help of a Kenya-based affiliate, al-
Hijra.
    If U.S. citizens are found to have been involved in 
Westgate, the complexion of the attack changes significantly. 
We know that a small number of U.S. Citizens have supported al-
Shabaab in the past, both physically and materially, but that 
support has tended to flow one way, toward Somalia. There is 
little evidence pointing toward any intent to attack the U.S. 
Homeland, but vigilance is required. Building trust with the 
Somalia community in the United States will be a critical part 
to the prevention strategy.
    However, the more immediate threat is not to the U.S. 
homeland but to the interests of the United States in East 
Africa, which are substantial. Therefore, I have some brief 
suggestions for the United States and its partners to consider.
    First, the U.S. should intensify efforts to help Kenya 
strengthen its ability to prevent and respond to terrorist 
attacks. Improving intelligence capacities is critical. So, 
too, is the need to improve communication and coordination 
among its security agencies.
    Instilling a security consciousness among the Kenyan public 
is another key way to bridge the intelligence gap. But it is a 
challenge, given the high levels of distrust in the police, who 
cannot be relied upon to act on information from the public. 
The U.S. should seek to build momentum behind efforts to reform 
and professionalize the Kenyan police, turning them into an 
organization that people respect rather than fear or deride.
    As the Kenyan authorities seeks to neutralize the threat 
from al-Shabaab, the assistance of Somali-Kenyans and Somalis 
living in Kenya will be critical. The United States should urge 
the Kenyan authorities to reach out to these communities and 
avoid heavy-handed actions that might alienate them, such as 
threatening to expel refugees.
    But, ultimately, the key to dealing with al-Shabaab will be 
found in Somalia. Therefore, removing the threat of al-Shabaab 
means isolating and relentlessly pursuing the most extreme wing 
responsible for the Westgate attack.
    As for the majority of al-Shabaab members, who joined for 
reasons other than the pursuit of international jihad, it may 
be possible to rehabilitate them through a combination of 
threats and inducements. They may even be persuaded to abandon 
violence and join the political process.
    More broadly, policy responses must be formulated to tackle 
the conditions of insecurity, economic hardship, and poor 
governance, which allowed extremism to take hold. The United 
States is an important funder of the Somalia Federal 
Government. It should use this influence to press for inclusive 
governance, improved security, and delivery of public services.
    I thank you for your attention and welcome your questions.
    Chairman Royce. We thank you, Mr. Downie.
    [The prepared statement of Mr. Downie follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Let me ask a question of Mr. Farah first, 
and that has to go to the question of young Somali-Americans 
that al-Shabaab attempts to recruit.
    Are there particular types of young men for which they have 
a greater instance of success when they try to recruit? What is 
the target?
    Mr. Farah. Al-Shabaab is targeting the disenfranchised 
youth. That is their tactic. And that is the game that we need 
to--that we are playing here. We need to be able--the youth in 
the community, you know, there are a lot of underlying issues. 
Radicalization doesn't happen overnight; it is a process.
    And so what we need to do is really try to engage the 
disenfranchised youth that are missing, whether it is jobs, 
whether it is lack of mentorship. Those are the youth that al-
Shabaab is targeting, and that is the core issue here. That is 
what we need to target.
    Chairman Royce. I just finished Ed Husain's book, ``The 
Islamist.'' I don't know if you have read it yet, but it is a 
very interesting perspective on this issue.
    Let me ask you about how you would assess the U.S. 
Government's anti-radicalization efforts. And I will probably 
ask Mr. Borelli the same question.
    Mr. Farah. My assess in regards to what our Government is 
doing in terms of al-Shabaab, we are very good at, you know, 
the external work, you know, in terms of a military going 
after, you know, a terrorist across the world. But what we need 
to do is inside, within the community, our Federal Government 
must invest local entities like Ka Joog to do more engagement, 
more work.
    What happened over a week ago shows me and shows us in the 
community that we need to do more work. So what I would suggest 
is that our Federal Government must invest local entities and 
must empower local entities to do more work within the 
community and across the Nation.
    Chairman Royce. Thank you, Mr. Farah.
    Mr. Borelli, your thoughts on that?
    Mr. Borelli. Thank you, Mr. Chairman.
    Number one, I do agree with Mr. Farah, in that the Federal 
Government needs to invest at the local level. We have seen 
that these recruitment efforts are hatched at the local level. 
They start with local grievances. And the best way to stop that 
message, to counter that message, is by credible voices in the 
community.
    I am not sure that the Federal Government has really a good 
strategic plan yet for doing that. In terms of, kind of, CVE, 
we have seen that many different agencies within the Federal 
Government have a role in the CVE, in countering this violent 
message, and, in some cases, it seems to be a bit disjointed 
and disconnected.
    We have also seen that a lot of this responsibility has 
been put on the backs of law enforcement, FBI and Homeland 
Security. And sometimes that may not be the best messenger to 
be working on CVE when, on one hand, you are trying to bridge 
this gap and build this trust and develop a dialogue on Monday 
and then on Thursday, you know, your counterparts from your 
same agency are in the community making arrests, putting sting 
operations together.
    So you have sometimes opposing forces that have different 
agendas but within the same agency. So I think this is 
something that we also should be looking at closely.
    Chairman Royce. Thank you, Mr. Borelli.
    Dr. Jones, in past hearings, we have learned of various 
networks, some of them affiliated with al-Shabaab, involved in 
smuggling Somalis into the United States. And I was going to 
ask you if this is still happening. And I was going to ask you, 
for what purpose would al-Shabaab smuggle people into the 
United States? 
    Mr. Jones. Mr. Chairman, my understanding is the pace of 
smuggling and actually individuals leaving the United States 
has likely decreased somewhat over the past probably 2 years. 
But I think there is an interest in recruitment and fundraising 
in the United States within the Somali community, the Somali-
American community.
    So the primary reasons for bringing people in are to 
recruit, to go back to Somalia, and to fundraise and to ensure 
that there is money that is going into the pockets of some 
cash-strapped members of al-Shabaab.
    Chairman Royce. In the past, how were people brought into 
the U.S.? How did they make access into the----
    Mr. Jones. One of the primary roots was through the U.S.-
Mexican border, through the southern route. If somebody has a 
legitimate passport and the name does not come up, you can fly 
in. But other than that, a primary route is through multiple 
border crossings along the U.S.-Mexican border.
    Chairman Royce. Thank you.
    We are going to go to Mr. Eliot Engel from New York.
    Mr. Engel. Thank you, Mr. Chairman.
    I want to refer back to a question I mentioned in my 
opening statement, and anyone that would like to answer this is 
welcome to.
    Could you discuss the relationship between the Kenyan 
security forces and the Somali population and provide analysis 
of what kind of engagement could be effective in combating al-
Shabaab?
    Mr. Downie?
    Mr. Downie. The relationship between the Kenyan security 
forces and Somalis has not been good, both inside Somalia and 
in Kenya as well.
    Inside Somalia, where Kenyan forces invaded the southern 
part of the country 2 years ago, there were growing suspicions 
that Kenya is not purely interested in pushing insecurity away 
from its border but that it is also pursuing political and, to 
some extent, business interests in southern Somalia. And that 
is clearly creating resentment within Somalia.
    Meanwhile, inside Kenya, there is a tendency when we have 
attacks like this for the Kenyan security forces to lash out 
somewhat indiscriminately, targeting members of the Somali-
Kenyan community in Nairobi. And there is also, as we have 
heard, a large Somali refugee community. These are incredibly 
counterproductive measures because these are the two 
communities that the Kenyans have to rely most closely on for 
getting information about these sorts of attacks.
    Mr. Engel. Well, many observers have suggested that the 
attack at Westgate was a desperate attempt to bolster 
recruiting and provoke an overreaction against the Somali 
community in Kenya. Do you agree? And what sort of policy 
responses are to be avoided in order to avoid this scenario?
    Mr. Jones. Ranking Member Engel, I think there were 
probably multiple motivations for conducting the attack. I 
suspect, as we have seen with other organizations, not just al-
Shabaab, overreaction would be welcomed by al-Shabaab. It would 
encourage recruitment.
    I suspect there were other reasons: A desire to exact 
revenge on Kenyan forces, which have conducted lethal 
operations against al-Shabaab training camps within Somalia; 
and also to get attention. They got 24/7 attention from 
multiple international media sites. So I think there were 
multiple reasons for doing that.
    I think, from an overreaction standpoint, I think one thing 
that we have to be careful about is we don't encourage the 
Kenyans to overreact, conduct overt attacks within Somalia that 
are likely to walk into the same issues that several of our 
witnesses have talked about, that walk us into a nationalist 
problem which encourages recruitment within Somalia.
    Mr. Borelli. If I may add one thing, Mr. Engel, is that I 
think the Westgate attack was very shrewd for recruiting.
    As I mentioned before, you have various factions within al-
Shabaab. You have more of a nationalist faction, and you also 
have kind of the global jihad mentality. This attack seemed to 
appeal to both. You were able to launch an attack against Kenya 
and against, you know, the country that has boots on the ground 
of your country, so it appeals on one hand to that nationalist 
movement, but also by targeting Westerners and all of the 
media, the global media that was given to this attack, it has 
the broader appeal to the al-Qaeda-like faction.
    So I think, in that sense, it was very shrewd and could be 
a good recruiting tool. 
    Mr. Downie. I might just add one thing, as well. Clearly, 
this was an attempt to get attention with the mother 
organization, with al-Qaeda. We have seen that, in the past, at 
least Osama bin Laden was somewhat dubious about al-Shabaab's 
seriousness as an organization, even thought they were too 
indiscriminate in their attacks and that they were killing too 
many Muslims. There has been a conscious effort, at least in 
the way that al-Shabaab has presented this attack, that they 
tried to single out Christians.
    And I think we shouldn't actually be taken in by this PR 
from al-Shabaab. You know, the single largest loss of life in 
the attack was at the beginning when a grenade was lobbed into 
a group of people, mothers and children watching a cooking 
demonstration, and a gunman open fire. This was a completely 
indiscriminate attack.
    Mr. Engel. Well, since you mentioned al-Qaeda, let me just 
get one last quick question in.
    What is the relationship, the nature of the relationship, 
between al-Qaeda and al-Shabaab? Al-Shabaab we know in 2012 
announced its formal merger with al-Qaeda, but what does that 
mean? Do they take directions from al-Qaeda? Do they get 
training? Do they get operational or financial support?
    Mr. Downie. Frankly, it is hard to know. Certainly, the two 
groups have been moving closely together, particularly since 
Ahmed Godane became the emir, the leader of al-Shabaab. You 
know, he has been trying consciously to reach out and appeal to 
al-Qaeda.
    Whether, though, this attack involves substantial support, 
coordination with al-Qaeda funding, or even received a blessing 
from al-Qaeda, I certainly am not aware of that.
    Mr. Engel. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you very much, Mr. Engel.
    We now go to Ileana Ros-Lehtinen, chairman of the Middle 
East Subcommittee.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman.
    Well, this horrible al-Shabaab attack, coupled with the 
closure of over 20 U.S. Embassies and consulates this past 
summer and last month's targeted suicide bombings against 
Christians in Pakistan by an al-Qaeda-linked group, proves that 
terrorist groups are extremely active still and their influence 
is far-reaching. And the threats to our U.S. national security 
interests from extremist groups, such as al-Shabaab and Boko 
Haram, remain very real. The United States must not let down 
our guard.
    These groups, as you have pointed out, are attempting to 
strengthen their ties to communities here in the United States. 
And that must be of grave concern to all of us because it will 
spread their propaganda to recruit susceptible youths to join 
their ranks. And, as you had pointed out in your testimony, the 
youths recruited by al-Shabaab are more driven by nationalistic 
and political ideologies, rather than religious ones, but can 
easily be converted to a global al-Qaeda agenda.
    And if we know that al-Shabaab and al-Qaeda have been 
successful in recruiting these susceptible youths, what more 
can we do to target those communities in an effort to counter 
this influence?
    Also, if we are going to fight terrorism and their 
activities, we have to develop a comprehensive strategy that 
can disrupt their networks, prevent their operations from 
spreading. And one entity that can be of assistance to us is 
the U.S. Africa Command. But what we have seen is that this 
combatant command continues to lack the necessary assets, 
infrastructure, personnel, and resources to effectively fight 
terrorism successfully.
    Another key aspect to dismantling al-Shabaab's activities 
is through the drug trade. We have known that the threat of 
narcoterrorism continues to grow. It is used by many terrorist 
organizations to finance their illicit activities and expand 
their networks.
    Last year, a senior DEA official testified that, as a 
result of drug trafficking, ``Millions of dollars a year are 
being sent to Somalia and other countries in the Horn of 
Africa, some of which ends up in the coffers of terrorist 
organizations such as al-Shabaab.''
    So, in conjunction with our regional allies, we need to 
fight this extremism head-on. We have to reassess our 
priorities, continue to use initiatives that are doing fairly 
good work but could be beefed up. The East Africa 
Counterterrorism Initiative, the Trans-Sahara Counterterrorism 
Terrorism Partnership, they could help our allies in Africa 
more to protect national security interests and dismantle 
terrorist cells. But we have seen that these programs lack 
prioritization, they lack clear objectives, realistic 
benchmarks of what they can do to look at our progress in 
fighting these extremists.
    In your assessment, would you say that the United States 
has been giving the threat of al-Qaeda the attention and focus 
that we should? Do we need to reevaluate our assessment of 
these threats and our policies and programs in place to fight 
them?
    So U.S. communities and reassessing the threats, anyone who 
wishes to take any of these.
    Thank you, sir.
    Mr. Borelli. I will--thank you, Congresswoman.
    I think, to your point about stopping the threat and trying 
to target the threat against these young people in the 
communities, I think we do need to continue to evaluate our 
programs both locally and federally. And, as Mr. Farah pointed 
out, some very good work is being done inside the community, 
and we need to continue to support that.
    As an example, when I was in Minnesota visiting the local 
community and speaking with many of the young Somali people 
there, they had actually put together a YouTube video showing 
the atrocities committed by al-Shabaab and showing how al-
Shabaab was manipulating people with a distorted message. And 
these are the type of programs that we can put forth to 
support, using the Internet, using the same social media that 
is recreating these people, use it as a counter-narrative.
    Ms. Ros-Lehtinen. Thank you.
    Anyone else wish to comment?
    Mr. Farah. Yep. If I may add to what my colleague here 
said, I think we definitely do need to reassess on moving 
forward in regards to the threats of al-Shabaab. In the recent 
attacks, what it shows us is that al-Shabaab is not weak as we 
think. We need to do more and more work within the community.
    And, you know, we have to understand that 99.99 percent of 
our community are law-abiding citizens. We are talking about a 
few individuals. But those few individuals are the ones that we 
need to target, that we need to go after, and those other ones 
that we need to engage----
    Ms. Ros-Lehtinen. Thank you.
    Mr. Farah [continuing]. Before----
    Ms. Ros-Lehtinen. Thank you, sir. I just ran out of time. 
Thank you.
    Chairman Royce. Mr. Sires of New Jersey, ranking member of 
the Western Hemisphere Subcommittee.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
meeting.
    You know, as I listen to you, what is the main source of 
revenue of al-Shabaab? Where do they get their money? Is it 
through drugs, through----
    Mr. Jones. My understanding is they have redundant sources 
of funding from illegal criminal activity, including 
involvement in the charcoal network, to kidnapping, to multiple 
other sources, including taxation in southern Somalia.
    So, redundant sources of funding, as well as funding from a 
diaspora population of Somalis across the globe, including from 
the U.S.
    Mr. Sires. I assume we keep track, especially in the U.S., 
of people who are contributing to these people, somehow?
    Mr. Jones. Yes. And some have been arrested for that.
    Mr. Sires. We have made arrests?
    Mr. Jones. Yes, we have made arrests.
    Mr. Sires. Okay.
    Mr. Borelli. The thing is, it is very difficult to track 
the money once it gets to Somalia. There are many people in the 
Somali diaspora that send money to their families because they 
desperately need it. The problem is that, once the money gets 
there, it is hard to track if it is actually going to feed 
their relatives or if it is being diverted to go to al-Shabaab. 
And this is the challenge for law enforcement because, quite 
frankly, you know, some of those people need the money and it 
is sent there with good intent but it is diverted.
    Mr. Downie. I might just add, this is a very live issue 
right now. Because of the difficulties of monitoring the money 
transfer services, where much of this money flows, a lot of 
banks are getting leery of doing business with these firms.
    The problem is--and it is certainly true that it is hard to 
monitor the flows, but by cracking down on these money 
transfers, you are also stopping vital sources of income for 
Somalis. And just at the moment where the country is starting 
to rebuild its economy to some extent, cutting off those flows 
could have a disastrous effect in the development prospects for 
Somalia.
    Mr. Sires. Mr. Farah, how does the Muslim community in 
Somalia and Kenya view al-Shabaab?
    Mr. Farah. I can--99.99 percent of the Somali diaspora 
across the world condemn the work of al-Shabaab. This is 
something that--al-Shabaab do not convey my image, they do not 
convey the image of the Somali communities across the United 
States, nor across the globe.
    Mr. Sires. So I guess one way of tracking the money would 
be the community that sends the money making sure that the 
money goes to the relatives that it is intended to.
    Mr. Farah. Definitely. And that is where we really have to 
take things back to Somalia and really empower the Federal 
Government and the regional government to really put laws, you 
know, a system that we can oversee where money is flowing.
    Mr. Sires. Are the agencies in this country working with 
you on some of these issues?
    Mr. Farah. Oh, definitely. Yep, everybody in the community 
is on board in terms of where al-Shabaab stands in the 
community, and that is--it doesn't stand anywhere. I mean, it 
is condemned throughout--across the community.
    Mr. Sires. Okay.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    We are going to go now to Mr. Christopher Smith, the 
chairman of the Africa Subcommittee.
    Mr. Smith. Thank you, Mr. Chairman.
    To our distinguished witnesses, I know you know this very 
well--in 1998, Assistant Secretary Carpenter, our Assistant 
Secretary for Diplomatic Security, sat where you sat and said 
that the U.S. Embassies in Nairobi and Dar es Salaam were 
``soft targets.'' And, of course, we have had a multiyear 
effort to harden those targets.
    No matter what we do, anybody in the world, there will 
never be a hardening of supermarkets, restaurants, and the 
like, which underscores the need to destroy these hideous 
terrorist organizations. Because they pick, through guerilla 
action, where they want to destroy people and destroy physical 
infrastructure.
    If you could tell us--you know, Dr. Jones, you said that 
unfortunately U.S. efforts against al-Shabaab and al-Qaeda more 
broadly have been ``disjointed.''
    Mr. Downie, you said that current efforts by leading 
international banks to stop doing business with money transfer 
companies, through which some of this funding is believed to 
flow, are understandable but, your words, are ``misguided.''
    And I am wondering, you know, when al-Shabaab was named as 
a foreign terrorist organization in March 2008, one of the 
mainstays of that law is to go after the financial transactions 
that keep them afloat and aid and abet their killing. How 
effective has the FTO designation been? How would you assess 
the weaknesses and strengths of the U.S. response? If you can 
go into some further elaboration.
    And while you are answering, Mr. Downie, you mentioned that 
Ahmed Godane is now in control of the movement and he is in 
ascendency. If you could elaborate on what that portends, in 
terms of further internationalizing the efforts.
    And, finally, if I could, many of us have met with Hassan 
Sheikh Mohamoud, the President of Somalia. How do you assess 
his work, his capabilities? He is trying, with U.S. and other 
support, to build up a military capability, hopefully with a 
strong emphasis on human rights. If you could speak to that, as 
well.
    Mr. Downie. Thank you. I will tackle the last couple of 
questions there.
    The importance of Godane's emergence as a leader, I think 
it is significant. He is, you know, on the very, very end of 
the scale in terms of extremism. Since his rise to the top of 
the organization, al-Shabaab has definitely tried to orient 
itself more closely with al-Qaeda. He is very much motivated by 
the international jihadist agenda.
    And he has been absolutely ruthless within al-Shabaab, as 
well. This is a very fragmented organization. And just in the 
last few months, he seems to have, through assassinations and 
other disappearances of potential rivals, some of whom 
disagreed with his methods, has consolidated his power and sort 
of strengthened those ties with al-Qaeda. So that has 
significance in terms of the group's choice of targets and 
willingness to look at targets outside of Somalia.
    In terms of the new President of Somalia, President 
Mohamoud has been in office for a year now. Given the 
challenges that Somalia faces--more than 20 years without a 
functioning government--he is doing okay. It is modest 
progress.
    In his favor, he is a serious person. He is not tainted by 
the politics of the past; he has come from outside of politics. 
He is trying his best. He has a technocratic government around 
him. But the challenges are immense. And one of them is the one 
you highlighted, and that is security. So efforts to strengthen 
the security services of Somalia are required.
    Mr. Smith. Is the U.S. Government doing all that it can do?
    Mr. Downie. I think one of the weak spots is the one you 
highlighted, is the financing piece. But there are no very easy 
solutions to that. By clamping down on the remittances, as I 
say, you are holding back the economic progress in Somalia, as 
well. So it is somewhat of a blunt tool.
    Mr. Smith. Okay.
    Dr. Jones?
    Mr. Jones. Yeah, I was just going to say more broadly on 
the FTO designation, when I look around the globe, look, there 
are some al-Qaeda affiliates, like Jabhat al-Nusra in Syria, 
which have clearly strengthened. Their control of territory has 
grown. Shabaab's has decreased. So I think the efforts that the 
U.S. and some of the neighbors and the Somali Government have 
done to al-Shabaab have decreased its control of territory and 
put it on the run.
    It is not dead. And I think the lesson that we have learned 
over the past couple of weeks is, if we take our foot off the 
gas a little bit, this group does have the capability to 
strike.
    So I hope we come back to the ideological issue here 
because I would say that is the biggest weakness we have right 
now, and the FTO designation is--they are still recruiting.
    Mr. Smith. Thank you.
    Chairman Royce. We will go now to Mr. Faleomavaega of 
American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I am curious, wanting to ask Mr. Farah, how come 88,000 
Somali-Americans live in Minnesota? I was under the impression 
that Somalia is a very warm country. Do you have snow in 
Somalia, as well? I am curious.
    Mr. Farah. Not that I am aware of. I don't think there is 
snow in Somalia.
    However, there are a lot of reasons why Somalis move to 
Minnesota, and the same reason that I did. Really, Minnesota is 
very good when it comes to raising a family. The economy is 
much better compared to other States. And, really, in the 
Somali community, everything goes by referrals. And so, if a 
family calls, you know, another family and they say, ``Hey, 
Minnesota is where you need to be,'' that is where the bus is 
going, that is where they will be moving.
    And so that is where a lot of the--that is why you are 
seeing a large concentration of the Somalis living in 
Minnesota.
    Mr. Faleomavaega. I am also aware of the fact that I think 
quite a sizeable number of people from--the Hmong people from 
Vietnam----
    Mr. Farah. Definitely.
    Mr. Faleomavaega [continuing]. Also live in Minnesota.
    And I'm just curious--maybe Mr. Borelli could help me--is 
there any particular reason? Economics? It seems that Minnesota 
is giving our country a good example for immigrants to come to, 
because they seem to be offering a lot better programs than 
other States.
    Is that the reason why so many of our Somalian-Americans 
live in Minnesota, Mr. Borelli?
    Mr. Borelli. Based on my discussions with people in that 
community, that is, in fact, the case. It is very easy for 
people from other countries to go. They can get some programs 
that help them get on their feet, get established. And then it 
just becomes a very hospitable place for people from other 
countries to make it in the United States.
    Mr. Faleomavaega. There is a--I wanted just to get your 
response. You know, when we had the Oklahoma City bombing, 
there was an immediate profiling by Federal agencies as well as 
State enforcement officers in Oklahoma. Anybody with an Arabic 
surname was questioned, because the presumption being--and this 
is the stereotyping, the profiling, to say that this terrorist 
act must have been done by a Muslim terrorist. Well, it turned 
out to have been an American.
    And I am just curious, Dr. Jones, Mr. Borelli, have there 
been any incidents--Mr. Farah--that our Somalian-American 
community have been profiled since this incident took place in 
Nairobi, where serious questions have arisen about the loyalty 
of our Somalian-American community, an event of this terrorist 
act that took place in Nairobi?
    Dr. Jones?
    Mr. Jones. I am not aware of any, but I don't live in 
Minneapolis, so I would defer to my colleagues.
    Mr. Farah. Thanks for the question.
    Since the incident happened in Kenya, there has been a lot 
of media throughout the community really scrutinizing the image 
of the Somalis. And, really, again, what we need to reiterate 
again over and over is that the majority of the community are 
law-abiding citizens. We are talking about a few individuals, 
and those few individuals do not convey the message or the 
image of the Somalis.
    Mr. Faleomavaega. Well, it seems to me--and then correct me 
if I am wrong, our experts--I believe there are only, what, 
several hundred al-Qaeda in Afghanistan, but we have al-Shabaab 
with some 5,000 members? Am I correct on the information that 
was given, that there are 5,000 members that make up the al-
Shabaab organization?
    Dr. Jones?
    Mr. Jones. That number sounds a little high now for full-
time members. But I think you are correct to point out that the 
numbers of al-Shabaab are larger than the numbers of al-Qaeda 
in Afghanistan.
    Mr. Faleomavaega. Mr. Borelli?
    Mr. Borelli. I believe Dr. Jones is right.
    And if I could kind of make a point on your other 
statement, I think we have learned lessons over the course of 
the years in law enforcement that--don't jump to conclusions 
too quickly. We need to not look at the person's last name or 
where they are from; we need to look at their actions and keep 
a very open mind. Because recruitment and radicalism and the 
opportunity to join a terrorist group and commit acts of 
violence transcends a person's place of birth or their 
religion.
    Mr. Faleomavaega. I appreciate that.
    Thank you, Mr. Chairman.
    Ms. Ros-Lehtinen [presiding]. Thank you, Mr. Faleomavaega.
    Mr. Rohrabacher of California is recognized.
    Mr. Rohrabacher. Thank you very much.
    Just to note, Mr. Faleomavaega, I did extensive 
investigations on the Oklahoma City bombing, and I still 
believe that there was a Muslim connection to that. And it is 
all the way from Terry Nichols being down in Cebu City at the 
same time that Ramzi Yousef was, just a few weeks before the 
Oklahoma City bombing, would indicate that. But that has never 
been proven.
    Yeah, radicals, whether they are Anglos or whether they are 
Muslims, seem to have the same enemies, and that is decent 
people throughout the world and especially the United States of 
America, which is trying to ally ourselves with good and decent 
people of the world.
    Let me just note that we are talking about thousands of 
people in a terrorist organization, thousands of people. This 
is not an operation that can be financed through contributions 
from individuals who sympathize.
    What is the cost of a bullet in Somalia? I would say the 
cost of a bullet is probably around 10 to 25 cents a bullet. 
Not to mention the cost of an RPG or the cost of explosives or 
the cost of vehicles or the cost of training or the cost of 
recruiting. These are enormous costs. These are things that 
cannot be done by--and one of the problems we have here, Madam 
Chairman, in the United States, is our law enforcement is 
trying to find out somebody who has donated $100, some cab 
driver somewhere, to this terrorist network somewhere in the 
world.
    No, we need to get down to the nitty-gritty and find out 
who is providing the hundreds of millions of dollars to the 
terrorist operations throughout the world and who is spending 
the money to recruit these young people, who is providing that 
money. And, for some reason, I just have an inkling that they 
are people in the Middle East who make a lot of money from oil. 
I don't know what countries they are, but I just have that 
inkling.
    And I would suggest that we could be able to prove that if 
we wanted to. But we have been keeping that information from 
the United States, as to who is pumping in millions, tens of 
millions of dollars into these terrorist operations.
    Now, am I off base when I think that? Mr. Jones? Gentlemen?
    Mr. Jones. Well, look, I think there is a lot of gray in 
how much and from where al-Shabaab gets all of its funding. But 
I would say it does get large amounts of funding from other 
locations in addition to the Middle East. Kidnapping actually 
can be quite profitable, as can illegal trafficking in a range 
of goods, including the charcoal smuggling, which, in some 
cases, is in the hundreds of thousands and, when you add it to 
kidnapping, in the millions of dollars.
    Mr. Rohrabacher. Right. So they have to put it in a bank, 
right? I mean, someone has to have those resources that you are 
talking about into a central location and then distribute it. 
So there are banks involved in this in some way. Is that 
correct?
    Mr. Jones. That is likely. Again, I am not a treasury 
expert, so would defer to those who have followed the banking 
more than I have.
    Mr. Rohrabacher. Okay.
    Well, all I can suggest here, Madam Chairman, and what I am 
suggesting today is we have been--and I like that Mr. Borelli 
is talking about how we have to get down to some of the actual 
psychological and combat the recruitment of people in these 
communities. But we have ignored the big guys.
    You want to get to the source, the bottom, and cut them 
off, people with money, cutting them off from recruiting 
people. But we have been going after the little guys. We have 
been going after these people individually, when we have some 
very big players in international terrorism who, for some 
reason, we have not been willing to touch, whether they are big 
banks or whether they are somebody in Saudi Arabia who has $1 
billion someplace and is pumping in $10 million to $20 million 
a year into these things. We are ignoring them.
    And I would hope that our Government, after this horrible 
massacre in Kenya, decides to focus on some of the big guys who 
are really financing all of this mayhem around the world.
    Thank you very much, Madam Chairman.
    Mr. Smith. Would you yield?
    Mr. Rohrabacher. I would be happy to yield.
    Mr. Smith. If I could, has the indictment of Uhuru Kenyatta 
by the International Criminal Court in any way frustrated the 
U.S.'s ability to work side-by-side with the Kenyans?
    As you know, he has stated he will not be intimidated. He 
does have a large number of peacekeepers deployed in Somalia.
    Ms. Ros-Lehtinen. Thank you, Mr. Smith. That is a wonderful 
question, and we hope that they get the opportunity to answer 
it at some point.
    Now we will turn to Ms. Gabbard for her question and 
answer.
    Ms. Gabbard. Thank you, Madam Chairwoman.
    Thank you, gentlemen, for sharing your insights with us 
here today.
    A couple of questions first for Mr. Farah with regards to 
the work that Ka Joog is doing. If you could give a couple of 
examples on the outreach that you are actually doing in the 
community, as well as your suggestions, both with the 
nongovernmental or nonprofit organizations within the Somali 
community can do, as well as law enforcement, in a proactive 
way to prevent these recruiting efforts.
    And secondly to that, if you could speak a little bit about 
how the Somali-American community views these recruiting 
efforts and what actions within the community, as well as 
externally, they are taking to denounce these efforts.
    Mr. Farah. Thank you for the questions.
    In terms of Ka Joog, our mission is to really empower the 
youth to really stay away from all negativity, whether it is 
al-Shabaab or gangs. You know, we have to treat al-Shabaab like 
a gang, and that is exactly what they are.
    We do a lot of--art and education really go hand-in-hand in 
everything that we do. In terms of art, we are talking about 
spoken word and play. We use the arts to engage the youth. But, 
ultimately, education is the key. Tutoring and mentoring is the 
core of what we do. And recently we have created really the 
first-ever Somali Boy Scouts. That is something that we haven't 
seen recently. Again, we are trying to integrate the youth to 
the greater society as best fit.
    There is a lot of great work in the community that is being 
done before us. What we need to do is invest in those programs, 
and that is what is missing here. Aside from what we are doing 
externally in the United States, we need to focus on what is 
going on in the community and empower local entities.
    I mean, Ka Joog is an all-volunteer-based organization. How 
can we fight al-Shabaab, when they have millions of dollars and 
you have entities like Ka Joog and others in the community who 
are, you know, who are running on E, pretty much, and our 
Federal Government is MIA, missing in action?
    In terms of the Somali community, they feel the same way 
across the board when it comes to al-Shabaab. You know, we 
condemn the work of al-Shabaab, and those few individuals don't 
convey the message for the Somali community.
    Ms. Gabbard. Thank you.
    And to the rest of the panel, I don't know if you are able 
to estimate what percentage of the financing for al-Shabaab is 
coming from the U.S. or is coming from these remittances that 
you are talking about.
    And, secondly, those recruits that al-Shabaab is getting 
from the U.S., is it your understanding that their intent is 
largely to engage in fighting abroad or here?
    Mr. Borelli. Based on the conversations that I have had in 
speaking with people in Minnesota, their intention is to fight 
abroad. But, as I mentioned, especially now with a change or 
consolidation of power and this more of a global jihad message, 
the fear is that they can be turned to come back and take the 
fight here in the U.S.
    With regard to your question about financing, I don't have 
a number, a percentage--maybe one of my colleagues has--in 
terms of total remittances.
    Mr. Downie. No, the subject matter is just so murky, given 
the way that money is transferred and the lack of transparency 
within that system.
    One thing I should say, and that is to follow up on Dr. 
Jones' remarks earlier, is that a key source of financing for 
al-Shabaab until very recently has been from within Somalia 
itself, from taxation of populations in al-Shabaab-controlled 
areas, from controlling previously the largest port in the 
south of the country. So if there is a silver lining from any 
of this, it is that now that al-Shabaab has been pushed back 
from some of the territory it controls, its funding is being 
squeezed, as well.
    Ms. Gabbard. Thank you.
    I yield back.
    Ms. Ros-Lehtinen. Thank you.
    And now we are honored to recognize Mr. McCaul, the 
chairman of the Homeland Security Committee.
    Mr. McCaul. Thank you, Madam Chair.
    I want to echo the gentleman from California's remarks, Mr. 
Rohrabacher, about the funding issue. I got briefed yesterday, 
as I do, on the threats, and the majority of these threats, 
when you look at these organizations and you look at the 
funding streams, the majority of them tie back to the Saudi 
peninsula in terms of funding. And this is sort of the 
inconvenient truth that no one talks about, and no one wants to 
deal with it either.
    There was an article today; it says ``$100,000 Sent from 
Gulf to Fund 25 Assassins'' to the elite intelligence unit of 
the Somali terrorist organization al-Shabaab.
    This is something, Madam Chair, we are going to have to 
deal with at some point in time. And I know it has been 
something that, the Saudis being our ally, you know, presents a 
problem, and it is a challenge. But it is something I think we 
need to address and see it for what it really is.
    I do wear two hats, and I am concerned about the threat to 
the homeland with respect to these Americans. We had a hearing 
on the Homeland Security Committee in 2011. Up to 50 of these 
al-Shabaab members are from the United States. I think there 
are more than that. Fifty that we know about.
    So I think the first question is to Mr. Borelli.
    With your expertise with the FBI, what degree of confidence 
do we have on the identity of these Americans over there, in 
terms of who are they? Can we get them on the no-fly list? Are 
they on the no-fly list? What is the threat to the homeland 
with respect to them returning after being trained and 
recruited in the war on terror?
    Mr. Borelli. I think with regard to your first question, in 
terms of being able to positively identify these individuals, 
get them on the proper watch lists, and so forth, a lot of 
progress has been made. I have been outside of the FBI for 3 
years now, so I can't speak to what has happened in that gap 
from when I retired till today. But I think, when I did leave 
the FBI, we had a fairly high degree of confidence.
    Nothing is 100 percent. Again, this is where we need to 
engage the community to help us help the FBI identify these 
people, to know when they leave the community, when they go off 
the grid, and confirm the fact that they have joined the ranks 
of al-Shabaab.
    Secondly, I would say to your other point, the risk to the 
homeland, I would say, is definitely there. I don't know if it 
is higher today than it was a month ago. But, again, my fear is 
the Najibullah Zazi type of situation, where somebody leaves 
with the intent to fight abroad and they are co-opted to take 
the fight back home. And certainly these individuals, if they 
have been off the grid for a while, if they have a blue 
passport, they can get back into society, reintegrate, and then 
we have a very serious problem that can go undetected.
    Mr. McCaul. And to that point, within al-Shabaab we know 
there is a rift between the American from Alabama, Mr. Hammami, 
and Godane, who is the current leader. And the rift, as I 
understand it, is between whether they want to focus their 
interests regionally or whether they want to expand that, as 
you talked about external operations, beyond the region to 
Western targets and possibly the United States. Mr. Hammami was 
assassinated by Godane and his disciples a week before this 
shopping mall attack.
    The other thing that worries me about the shopping mall is 
it is a symbol of Western--it is sort of a Western target. So 
you put all that together, and that is very confusing and 
disturbing as well.
    And, Dr. Jones, what do you make of this rift within al-
Shabaab and the assassination of Hammami? And were these 
Americans under Hammami's control in any way responsible and 
complicit with this attack on a Western symbol, the Westgate 
shopping mall?
    Mr. Jones. I can't speak to the degree of involvement by 
Americans. I mean, my understanding is that is still being 
looked at by our own agencies, to some degree.
    But what I would say is, (A), I would strongly support your 
point of notable rifts within the organization. (B), there has 
been encouragement, apparently from Ayman al-Zawahiri, to 
conduct attacks outside of just Somalia.
    And, (C), I would also note that what the U.S. does can 
influence it. Not just Zazi but Faisal Shahzad in 2010 was 
involved in an SUV attempted attack in Times Square. That 
organization, the Pakistan Taliban, was assessed earlier that 
year by our U.S. intelligence community not to be a threat to 
the homeland. We assassinated, the year before, the head of 
that organization with a drone strike.
    If we were to take those kinds of action in Somalia, my 
guess is they would be right back after us. So our actions also 
can impact where this goes forward.
    Mr. McCaul. I see my time has expired. Thank you very much.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Mr. Vargas of California is recognized.
    Mr. Vargas. Madam Chairman, thank you very much for the 
opportunity.
    I do want to focus us a little bit on the United States. 
Obviously, I read here on page 4 that al-Shabaab has 
demonstrated a remarkable ability to recruit Somali-Americans 
since at least 2007. The epicenter of this effort has been 
Minnesota, where there is a large Somali-American population.
    I represent the area of San Diego, and we also have a 
fairly large Somali population. During the ethnic cleansing in 
Kosovo, my wife and I decided we wanted to adopt a Muslim 
family that went through the horrors of that ethnic cleansing, 
so we did. And they lived with us for 2 years, and during those 
2 years I got to meet many in the Somali community who had also 
been airlifted to California.
    Now, I have not heard of any recruitment in San Diego for 
al-Shabaab or any other terrorist organization. Could you 
comment on that?
    Mr. Borelli. I would say the fear is that the Internet does 
not know the boundaries between San Diego and Minnesota. And we 
have seen that al-Shabaab is really very effective in using the 
Internet. Many of these young people get that message from the 
Internet.
    So, while there may not be boots on the ground and, you 
know, that type of recruiting, I think the fear is that you 
absolutely have recruiting in San Diego via the Internet.
    Mr. Vargas. And then my follow-up question for you, and I 
think I heard it earlier, the notion that maybe Somali 
terrorists were coming across the Mexico-California or Mexico-
Texas border, the border from Mexico and the United States. Do 
we have any evidence at all of that?
    Mr. Jones. Yes, in particular the movement of individuals 
from the United States south across the border. Some have 
returned. I am not aware of many that have returned that have 
been prepared to conduct attacks. But, yes, movement of 
individuals going in both directions.
    Mr. Vargas. Because my understanding is that most of the 
Somalis that were brought here actually have permits to be 
here, have legalized status.
    Mr. Jones. The vast majority do. My only point earlier was 
that there is a human trafficking network that has moved 
Somalis out and into the United States via the U.S.-Mexican 
border. But that does represent a very, very small percent----
    Mr. Vargas. The reason I say that is because always the 
border seems to become the excuse, saying that the terrorists 
are coming across the border. And I have a very good 
relationship with the Border Patrol there; in fact, we met here 
last week. And they have not apprehended many terrorists coming 
across the San Diego-Tijuana border.
    It seems that most of the terrorists--and I do agree that 
there are a number of them, obviously, here; we have caught 
people, we have fined people--seem to have come here legally, 
either in an airlift, some humanitarian effort on the part of 
United States. They have permits to be here. Is that correct?
    Mr. Jones. Yes, that is the vast majority. But, again, I 
would also point out that some Americans, including Somali-
Americans, have left to go fight in al-Shabaab through that 
border, as well. So it is not just the returning.
    Mr. Vargas. So it is the exiting the United States, it is 
not the entering the United States, then.
    Mr. Jones. I don't know the percentage that have entered 
via that way. I am----
    Mr. Vargas. Do we have any evidence of anyone that has 
entered that way?
    Mr. Jones. I can't speak to that.
    Mr. Vargas. Do you have any information of any name, any 
person that may have been arrested trying to enter the United 
States?
    Mr. Jones. I can check and get back to you on that.
    Mr. Vargas. Would you, please? Because I would like to know 
that. Because it is usually used as an excuse, that the border 
is so porous, all these terrorists are coming through, and it 
seems to me that mostly landscapers are, you know, not many 
terrorists.
    It seems that most of the people who become terrorists are 
those that arrive in this country with some sort of visa, some 
sort of permit, where we, through our generosity as a Nation, 
take a look at some horrible event that is happening around the 
world and we allow people to come here on a humanitarian basis. 
And then, unfortunately and scandalously and outrageously, they 
become terrorists or terrorist sympathizers.
    And I think that we should prosecute them and we should go 
after them and show them no mercy, really. You know, when the 
United States stretches out its hand for friendship, as we have 
historically, you know, we should not tolerate any sort of 
terrorist or terrorist activity or terrorist sympathizers.
    But, again, I just wanted to make the point that you hear 
it over and over, all these terrorists coming from Mexico or 
the southern border into the United States, and we don't seem 
to have any information on that. We do have lots of information 
of terrorists who come from other parts legally into the 
country, become radicalized, go and fight somewhere else, and 
then they blame it on my hometown, where there is no evidence 
of it.
    Mr. Jones. Yeah. We will get back to you on that.
    Mr. Vargas. Thank you very much.
    Thank you, Mr. Chair.
    Chairman Royce [presiding]. Thank you.
    We go now to Mr. Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    I have three questions, gentlemen. First one: How does al-
Shabaab use Twitter? And what do you understand Twitter's 
policy, if any, is toward al-Shabaab?
    Dr. Jones?
    Mr. Jones. My understanding is that they have used 
surrogates to send out messages on Twitter. But I cannot speak 
to Twitter's policies on monitoring or targeting al-Shabaab on 
Twitter.
    I would also say that, much like a number of groups that we 
have seen, militant groups, including ones affiliated with al-
Qaeda, they have become very active on multiple social media 
forums, including in this Twitter case, to get information out 
really as a propaganda tool.
    Mr. Poe. Anybody else want to weigh in on that?
    Mr. Downie. Only really to support that point and that, you 
know, al-Shabaab means ``the youth.'' It attracts a lot of 
young people who are media-savvy, and they have used those 
skills and familiarity with Internet, social media, to great 
effect, posting videos. And it is powerful recruitment tool, 
and I think we need to respond to that.
    It was very interesting----
    Mr. Poe. Excuse me for interrupting. What do you mean, 
``respond''? What do you mean by ``we need to respond''?
    Mr. Downie. Well, we need to be smart in how we use 
information, as well.
    Just to give you one example, as the Westgate attack was 
unfolding, al-Shabaab, or people purporting to be al-Shabaab 
members, were churning out messages goading the Kenyan 
authorities on Twitter feeds. The Kenyans were trying to 
respond through their own social media but were really a step 
behind the whole time, were flatfooted. And so it caused a lot 
of confusion.
    I think, as governments, we need to be a little bit smarter 
about how to respond to this threat.
    Mr. Poe. What are the long-term goals, objectives, or 
policy of al-Shabaab?
    I would just open it up. Anybody who wants to weigh in on 
that?
    I will just start picking folks if nobody wants to weigh 
in.
    Mr. Downie. Well, as I mentioned in my testimony, al-
Shabaab is a very broad organization. Clearly, the ascendant 
wing now is one that is committed to global jihad, that 
increasingly looks beyond the borders of Somalia to launch 
attacks, primarily within the East Africa region, targeting 
specifically those countries that have peacekeeping troops in 
Somalia, but, of course, on the lookout for soft targets that 
represent so-called Western interests. So that is why I think 
the Westgate Mall was, from their purposes, a perfect target to 
pick.
    Mr. Poe. So their goals are just to cause chaos, worldwide 
jihad, murder, pillage?
    Mr. Downie. Their goals have evolved throughout time. They 
started out almost as a nationalist armed wing opposing the 
Ethiopian invasion at that time. They went through a process, 
once Ethiopian troops left, of holding substantial amounts of 
territory in Somalia and tried, with disastrous consequences, 
to govern territory. Eventually, they were forced back, largely 
from other African peacekeeping troops in there. Now they seem 
to have pulled back and are pursuing this jihadist agenda.
    So when I hear people say that al-Shabaab is weak now, that 
might be true. They have narrowed down their agenda. But that, 
paradoxically perhaps, makes them more dangerous. They have 
channeled their objectives to narrower goals, and that is the 
jihadist terrorist attack agenda, I think.
    Mr. Poe. In Africa, do we see al-Shabaab and other al-Qaeda 
affiliates growing in influence? Is their influence about the 
same, or is it diminishing? Is al-Qaeda's influence diminishing 
in Africa? Increasing, the same, diminishing?
    Dr. Jones, I see you are pushing the button.
    Mr. Jones. I would say, across the board in Africa, when 
you include North Africa as well as the Horn, I would say there 
is a slight increase in influence of al-Qaeda and broader 
Salafi jihadist movements in countries like Libya, countries 
like Egypt now, and several other locations.
    Somalia, as I said earlier, again, it does appear over the 
past 2 years that Shabaab's control of territory has decreased. 
But if you are asking about Africa more broadly, I would say 
there has been a slight growth.
    Mr. Poe. All right.
    Anyone else?
    Mr. Downie. Yeah, I would say the influence ebbs and flows 
across time. There has been a slight growth more recently, 
particularly in the Sahel region, this band of very vulnerable 
states just south of the Sahara, specifically in Mali, where an 
al-Qaeda affiliate actually took control of part of that 
country for a short time but has subsequently been pushed back, 
largely through a military intervention by France with some 
support from others.
    Another area of concern is northern Nigeria, with Boko 
Haram, an extremist movement, launching attacks and killing 
multiple people in that part of Nigeria. Although, primarily, 
the motives there seem to be domestic by nature, so I would not 
say that they necessarily pose a threat to the U.S. homeland, 
for example.
    Mr. Poe. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. We go now to Lois Frankel from Florida.
    Ms. Frankel. Thank you, Mr. Chairman.
    Thank you to the panel for being here.
    You know, I think I share with Americans that what happened 
at the Westgate Mall in Nairobi was just horrible. And I know 
our heart goes out for the victims and their families. And now 
we see CNN and other media outlets have turned away to other 
stories, obviously.
    What I would like to ask you to do--and I am just going to 
ask a very, very basic question, which is, if you could lay out 
in as clear a manner as possible why Americans should be 
concerned about what happened, what is the potential threat 
from al-Shabaab not only in the region but beyond the region, 
here, that needs our attention, given what is happening 
internally in the United States.
    Mr. Borelli. I will take the first crack at that.
    I think the biggest reason that we should be concerned, as 
Americans, is looking back at history and what happened with 
al-Qaeda, that we viewed originally al-Qaeda as being not a 
threat to America, as a regional problem, focusing its efforts 
on the Middle East and Central Asia. And we learned the lesson 
of how a terrorist organization can morph and change and become 
our number-one enemy.
    So, in my opinion, that is the biggest concern that we have 
with al-Shabaab, is that it can morph and change into more of a 
global threat than it is now.
    Mr. Farah. If I can add to that, I think our biggest--we 
should be very concerned about al-Shabaab because it is not 
just a regional issue. I think their biggest goal is really to 
do us harm here in the United States if they are capable of 
doing that. Really, their main goal is really to attract 
disadvantaged youth and to really brainwash them.
    And that is really where we need to come in and stop that 
before that happens. And that really should be our main 
concern, is doing more work internally within the United 
States, and then treat al-Shabaab as, you know, as we are 
treating al-Qaeda.
    Mr. Jones. Very briefly, one, al-Shabaab has a capability 
to conduct external operations outside of Somalia. Two, they 
have an interest in targeting the United States, its Embassies, 
its citizens, kidnapping as well as killing. And, three, they 
have been recruiting in American communities, including over 
the Internet.
    So I think you put all three of those together, yes, there 
should be a concern.
    Mr. Downie. I would just add, finally, we talked a lot 
about the potential threat to the U.S. homeland today, but 
there are very important substantial U.S. interests in East 
Africa, in Kenya, an important ally of the United States. 
Nairobi is home to the largest U.S. Embassy in Africa. It is 
the hub for important development programs that cover the whole 
region. Many big U.S. firms have regional offices in Kenya.
    So, irrespective of al-Shabaab's capability to hit the U.S. 
homeland, they certainly have proven their ability to attack 
neighboring countries to Somalia. And that, by necessity, 
involves U.S. interests.
    Ms. Frankel. Thank you.
    Mr. Borelli, did you want to add anything to that?
    Mr. Borelli. No. I think all my colleagues summed up the 
situation very accurately.
    Ms. Frankel. Thank you very much.
    Mr. Chair, I waive my time.
    Chairman Royce. Thank you, Ms. Frankel. Very good question.
    We go now to Jeff Duncan of South Carolina.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    And let me just remind the folks that al-Shabaab has been 
around for quite a while. They announced a merger in February 
2012 with al-Qaeda. So they are not just a franchise, they are 
actually part of the whole structure now.
    In past hearings, Mr. Chairman, we have learned of various 
networks, some of them affiliated with al-Shabaab, involved in 
smuggling Somalis into the United States through Mexico.
    Dr. Jones, is this still happening? And for what purpose do 
you think al-Shabaab smuggles people into the United States?
    Mr. Jones. My understanding is it is happening. I cannot 
give you specific numbers on how many may be smuggled right 
now.
    But I think your question on the purpose, there may be 
several purposes: People wanting to return home and people 
intent on recruiting or fundraising. I think those are the 
primary reasons.
    Mr. Duncan. Okay.
    Would anyone else like to comment on that on the panel?
    Okay. Beside the 2010 attack in Kampala during the World 
Cup, al-Shabaab has focused much of its attention in Somalia. 
This attack in Kenya fits exactly the strategy that al-Zawahiri 
laid out just recently for al-Qaeda globally.
    Does the Westgate attack refute the claim that al-Shabaab 
is on the retreat?
    Dr. Jones?
    Mr. Jones. I think one assesses the competence of terrorist 
organizations like al-Shabaab in several ways. One would look 
at their control of territory, which they have lost. But I 
think what they have demonstrated is, though they have lost 
ground--and I think that issue is important, because, you know, 
one of their goals is to attempt to overthrow the Somali 
Government. Their success on that part of their strategy has--
they have not been victorious at recently.
    But what I think they have shown and what this does 
demonstrate is, even though they have lost some ground, they 
still have an attack capability. And I think if you look at the 
history of al-Qaeda, the strength and weaknesses of its 
affiliates and of the organization itself have ebbed and flowed 
in a series of waves. And even with a collapse of Shabaab into 
southern parts of Somalia, again, they are a dangerous 
organization.
    Mr. Duncan. Do you think that capacity extends beyond the 
African continent? Do you think Shabaab has the capacity to 
carry out this type of attack or a Mumbai-style attack 
somewhere else in the world?
    Mr. Jones. I think it is certainly feasible, I think, based 
on the fact that they have, again, conducted an external 
operation outside of Somalia, they have done the collection, 
analysis, reconnaissance of the target, they have moved people 
and fighters into place.
    What they would need in a specific country, let's say the 
United States or in Europe or somewhere else, is they would 
need the people in place, the infrastructure in place to do 
that. If they had that and had an interest, they could do it.
    Mr. Duncan. Do you think our focus, counterintelligence 
focus, being so singularly, almost, focused on al-Qaeda as a 
whole, do you think we have taken our eye off these smaller 
subgroups like Shabaab? Are there other subgroups that might be 
planning similar attacks that we need to focus on, as well?
    Mr. Jones. I think an important chunk of our intelligence 
community recognizes the threat from Shabaab. I can't 
characterize whether they have--and I would say in response to 
that, you know, the FBI, among other organizations, has been 
very effective at penetrating them in the United States.
    So I do think we recognize the threat. Recently, whether we 
have laid off a little bit, that is a more interesting 
question. I mean, that is certainly plausible.
    Mr. Duncan. Yeah.
    Yes, sir?
    Mr. Downie. Could I just add, I don't think we have taken 
our eye off the ball in terms of Shabaab, but we should be 
aware of potential other groups in the wider region.
    And what seems an alarming element of the Westgate attack 
is that it appears al-Shabaab may have fostered links with a 
Kenya-based group called al-Hijra, which emerged from an 
extremist mosque in Nairobi and may have had some involvement 
with this attack, although investigations obviously are 
ongoing.
    So I think we always need to be alert for the emergence of 
new groups and particularly their attempts to make contact with 
other broader terrorist groups in the region. Tanzania is 
another country where there is a small but growing problem with 
Islamic extremism in parts of that country, as well.
    Mr. Duncan. Thank you, guys.
    My time is about expired. I will yield back.
    Chairman Royce. Thank you.
    We go now to Mr. Brad Sherman from California.
    Mr. Sherman. Thank you.
    America provides advice to other countries on the rule of 
law and good government. We are now in a situation where many 
of us are embarrassed to be part of the Federal Government and 
its Congress.
    This shutdown, what effect has it had on our image, 
particularly in East Africa, as a country and a model to follow 
and our capacity to train, to gather information, to do the 
development projects that are aimed at hearts and minds?
    I realize this is a bit away from the questions you may 
have prepared for, but does anyone have an answer to how the 
shutdown is affecting our efforts in East Africa?
    Dr. Jones?
    Mr. Jones. Mr. Sherman, I don't know what the perception is 
in East Africa. I would say my biggest concern, the longer this 
grows is--or at least one concern, I don't know if it is the 
biggest--one concern is our ability to continue to monitor this 
threat from intelligence agencies if we have people that have 
been furloughed.
    Mr. Sherman. There are an awful lot of folks at the State 
Department, I happen to know, that are being furloughed right 
now. Trips to Africa have been cancelled just in the last 10 
minutes. And this is no way to run a superpower.
    Dr. Jones, does al-Shabaab have important assets, strategic 
assets, that are amenable to destruction from the air by the 
Kenyan, British, or American airpower?
    Mr. Jones. They do have some. The Kenyans have used fixed-
wing aircraft, helicopters to target al-Shabaab camps, 
structures that they have established, such as headquarters. 
So, yes, they do have some facilities that can be targeted.
    Mr. Sherman. And is the Kenyan Air Force up to doing that 
which can be done? Or is there a lot that could be done by 
American airpower, British airpower that cannot be done by the 
Kenyan Air Force?
    Mr. Jones. I am not an expert on the Kenyan Air Force. I am 
not an expert on the Ethiopian Air Force. But I would say that 
they have been successful at helping the Somali Government push 
back Shabaab from several key areas, including Kismayo and 
Mogadishu.
    Mr. Sherman. Thank you.
    Mr. Farah, I am very sure that the vast majority of Somali-
Americans are law-abiding and that only a tiny fringe is 
engaged in law-breaking in order to help al-Shabaab.
    My question to you is, does al-Shabaab have significant 
legal support? That is to say, people in the community rooting 
for them, praising them, condemning the efforts of the 
Ethiopian and Kenyan militaries. And are there Web sites based 
here in the United States, dot-org, dot-com, et cetera, that 
condemn Kenya's actions in Somalia and/or praise al-Shabaab?
    Mr. Farah. I can assure you that a great majority of the 
community is on the same page when it comes to al-Shabaab. You 
know, nobody goes out there and start--you know, gets excited, 
you know, when they hear al-Shabaab on the news or when they 
hear of attacks by al-Shabaab. Everybody in the community feels 
the same way as I do, which is, you know, condemning the----
    Mr. Sherman. What about those Web sites? If I spoke Somali, 
could I find pro-Shabaab or anti-Kenya Web sites in the Somali 
language based here in the United States?
    Mr. Farah. I am not aware of any Web sites of such.
    Mr. Sherman. Okay.
    The Kenyan Government has painted a picture of 10 to 15 
attackers, one with a British and up to three with American 
citizenship. What is your best estimate, to anyone on the 
panel, as to how many attackers there were and how many of them 
had passports either from the United States or a visa-waiver 
country, which of course includes Britain?
    Mr. Downie?
    Mr. Downie. We honestly have very little to go on right 
now. The Kenyan authorities have been very slow in providing 
information about the attack. We still don't know some of the 
very basics: How many attackers, in what groups, how many 
escaped, were hostages taken. We have very, very little to go 
on, other than, and now it turns out, a fake Twitter account 
from al-Shabaab, which gave a list of names of people. And we 
just have no ability to----
    Mr. Sherman. And we don't think that is even al-Shabaab?
    Mr. Downie. Well, al-Shabaab have said this wasn't them. I 
mean----
    Mr. Sherman. And, finally, does al-Shabaab have substantial 
support among Somalis who live in East Africa but outside the 
borders of Somalia--that is to say, Kenya, the Ogaden, Egypt, 
Djibouti, et cetera?
    Mr. Downie. There are some sources of support from outside 
Somalia, particularly in Kenya, the main Somali district within 
Nairobi, called Eastleigh. The Kenyans have raised concern 
about the enormous refugee camp within the Kenyan border, just 
close to the Somali border, where 500,000 people now----
    Mr. Sherman. And that is the second-largest city in Kenya.
    Mr. Downie. Right.
    Mr. Sherman. So the second-largest city in Kenya and a 
district in the largest city of Kenya not only contain Somalis 
but that there is some substantial support within those areas 
for al-Shabaab.
    Mr. Downie. I wouldn't say substantial. The Kenyan 
authorities certainly say so, but the Kenyans are obviously 
very concerned about this refugee camp. They have been hosting 
it for 20 years, and it is perhaps in their self-interest to 
talk up the threat.
    Mr. Sherman. Thank you.
    I yield back.
    Chairman Royce. Colonel Paul Cook of California.
    Mr. Cook. Thank you, Mr. Chair.
    Because of recent events, I am going to ask this question. 
Any indication that they could have access to chemical weapons 
from any source?
    Mr. Jones. I am not aware of any, Mr. Cook.
    Mr. Cook. In your opinion, it would be a major game-changer 
if they could develop something like that, in terms of 
spreading terror in a place. I, quite frankly, expected 
something a long time ago, and nothing known from you?
    Mr. Jones. No, nothing I am aware of. Again, I would point 
to other groups where we have seen efforts, including Jabhat 
al-Nusra in Syria with a chemical program right now, including 
sarin, but not here.
    Mr. Cook. Well, that is what I am worried about, sarin and 
some of the other things, and maybe some other allies that 
might not have it now but in the future get access to that--
Syria, et cetera.
    The weapons that were used in the attack, primarily small 
arms, AK-47s, let's see, RPGs? Any mortars or rockets, anything 
that could elevate it a stage? Or no indication of that yet?
    Mr. Downie. There is no indication right now. From what we 
have learned, and the information is still patchy, it was small 
arms and grenades.
    Mr. Cook. Okay. Do they have SA-7s, SA-9s, ASU-23/4s, anti-
aircraft capability at all, to the best of your knowledge?
    Mr. Downie. No.
    Mr. Cook. And it goes back with that other question that 
was asked. Okay.
    I know I am throwing a lot of questions, but I usually 
don't get a chance to ask so many questions, so I am going to 
make the most of it.
    It kind of looks like there is always a major event, 
obviously talking about the attack, in conjunction with the 
World Cup and the big mall. Has anyone looked at Sochi? I know 
it is the Winter Games. If it was the Summer Games in that 
area, I think--I don't think the Somalian or the Kenyan bobsled 
team is going to be a target. But you look at the proximity to 
North Ossetia and the Caucasus and connections with other 
terrorist groups.
    That is 5 months, if my math is right, or 6 months, coming 
up, and we haven't heard much about it. I am sure the Russians 
are going to have top security. But have you looked at that or 
heard of anything at all?
    Mr. Downie. I have certainly not heard anything. All I 
would say is that I think al-Shabaab has a plethora of closer, 
easier targets to hit, and the Westgate Mall was evidence of 
that.
    Mr. Cook. Okay. I hope the Mall of America is not a target 
because of its location in Minnesota. But my question was, do 
they have a presence in Canada, which has different rules--I am 
talking about al-Shabaab getting in and out of the country. Or 
have you noticed any?
    Mr. Farah. Nope.
    Mr. Cook. Okay. I just--I always look at a map and try 
and--all right.
    My last question is, is there any presence of al-Shabaab in 
Djibouti or in Yemen in terms of arms-dealing?
    Mr. Jones. I would say in answer to that that there is and 
there has been a relationship between al-Shabaab and al-Qaeda 
in the Arabian Peninsula, AQAP, which is based in Yemen. They 
have conducted some training. They have conducted some shared 
tactics, techniques, and procedures. They are both al-Qaeda 
affiliates. That is the biggest link in the Gulf area.
    Mr. Cook. Nothing in Qatar?
    Mr. Jones. Other than funding, I am not aware.
    Mr. Cook. And they have gotten funding from Qatar?
    Mr. Jones. Well, they have gotten funding from the Gulf, 
from inside the Gulf. I can't give you definitive answers on 
from which Gulf countries, other than, you know, I think it is 
certainly possible.
    Mr. Cook. Okay. Thank you.
    I yield back.
    Ms. Ros-Lehtinen [presiding]. Thank you, Mr. Cook.
    And we are pleased to recognize Dr. Yoho of Florida for his 
questions.
    Mr. Yoho. Thank you, Madam Chair.
    Gentlemen, I appreciate you being here.
    Mr. Borelli, you said that the youth movement is 
politically motivated and not religious. Is there a way that 
you can separate that from the Muslim faith? I mean, don't they 
kind of go hand-in-hand?
    Mr. Borelli. They do go hand-in-hand, but in the 
conversations we had, the idea of this war against the West, 
this Islamic notion, did not come up in our conversations. I 
mean, it was primarily couched in a way that the youth were 
concerned that there were foreign troops on the ground in 
Somalia, and they felt it was their duty to go back to Somalia 
to defend their homeland. It wasn't like a crusade war of the 
West against Islam.
    Mr. Yoho. Okay. Thank you.
    And, Dr. Jones, again, I agree with my colleague, Jeff 
Duncan, over here about the smuggling of the Somalis into the 
United States through Mexico. And you agree that it did happen. 
And it doesn't take many people to come in here to wreak havoc 
in this country. You know, it is like a cake mix. They say one 
drop of kerosene can ruin the cake.
    And so that is an issue of ours, where it is imperative 
that we secure the border. And would you agree with that, for 
that reason there?
    Mr. Jones. Absolutely. Sure. I mean, one of the things that 
came out of the bin Laden documents just in 2011 was an 
interest in getting somebody with a Mexican visa.
    Mr. Yoho. Right. And, you know, it is like a cancer that 
metastasizes, and it doesn't take a lot.
    I want to direct these questions to you, Mr. Farah. Why do 
most of the Somali immigrants come to America, or a lot of 
them, I will say?
    Mr. Farah. A lot of them come to America for a lot of 
reasons. Obviously, Somalia is in a state--I mean, was in a 
state of civil war back then. You know, education, job 
development, the American dream--I mean, that is just a couple 
options of why folks move.
    Mr. Yoho. That is a wonderful thing, isn't it, the American 
dream? 
    Mr. Farah. It is a wonderful thing.
    Mr. Yoho. Freedom?
    Mr. Farah. It is a wonderful--freedom is a major, a major--
--
    Mr. Yoho. I agree.
    Mr. Farah. Yep.
    Mr. Yoho. Are the majority of the Somalis in America, are 
they practitioners of the Muslim faith?
    Mr. Farah. Yes.
    Mr. Yoho. Okay. Do most Somalis adhere to the belief in the 
Sharia law or American law? Or is it a combination?
    Mr. Farah. I mean, the majority of the Somali people across 
this Nation go by the laws that we have here on our land.
    Mr. Yoho. Okay.
    Let me ask you this. How well have the Somalis in 
Minnesota, which is my home State--I was born there, proud to 
be from there--how well have the Somali immigrants assimilated 
into America, as far as culture, ideals, beliefs, and, I think 
most importantly, loyalty to the United States of America?
    Mr. Farah. They are very--well, let me say this. The Somali 
community, especially in Minnesota, are very loyal to this 
great Nation.
    In terms of the assimilation, to some extent, they have 
been assimilated to the greater society. However, we do need to 
do a lot more work. There is a lot more work ahead of us that--
especially the youth. There are a lot of issues, especially 
identity. I mean, the new generation, are we Somalis? Somali-
Americans?
    And that is what we are doing, you know, in terms of Ka 
Joog and our work, is really making sure that kids who--because 
they are not going back to Somalia. This is their home. This is 
my home.
    Mr. Yoho. Right. Well, and I commend you for the work you 
are doing with Ka Joog.
    Let me ask you this. What is the average age in the 
Minnesota region of the average Somali? I mean, is it thirty? 
Twenty-five?
    Mr. Farah. The majority of the community is between 5 to 
24.
    Mr. Yoho. Okay. What is their graduate rate?
    Mr. Farah. The graduation rate is very low. And that is 
what I was talking about earlier. There are a lot of underlying 
issues, such as a lack of education, lack of jobs.
    Mr. Yoho. Why is there a lack of education?
    Mr. Farah. Well, because----
    Mr. Yoho. If they are assimilating into our country.
    Mr. Farah. To some extent, to some extent. We do need to do 
more work. I mean, there is a lot--in terms of, if you look at 
it gender-wise, females are doing great work. I mean, they are 
graduating far more than their counterparts. In terms of the 
males, there is a lack of mentorship. And that is where we come 
in. The high school rate is very low when it comes to boys, and 
so that is where we need to do----
    Mr. Yoho. All right, let me ask you something before I run 
out of time. What is the employment rate with the Somali male?
    Mr. Farah. Based on the research that I was recently 
reading, just within one of the main communities in the 
Somali--one of the main neighborhoods, it was well over 17 
percent. And that is way higher----
    Mr. Yoho. That is the unemployment rate.
    Mr. Farah. That is the unemployment rate. That is way 
higher than the average of the State.
    Mr. Yoho. I agree.
    Madam Chair, I am out of time, but I have my questions that 
I will submit.
    Ms. Ros-Lehtinen. Thank you so much. Thank you, Dr. Yoho.
    And now we are pleased to recognize Mr. Weber for his 
questions.
    Mr. Weber. Thank you, Madam Chair.
    Mr. Jones, in your--Dr. Jones--no kin to Indi, I presume--
in your comments, you said that you doubted that al-Shabaab had 
competent external operations capability.
    Mr. Jones. Can you repeat that one more time? I argued 
earlier that they do have an external operations capability.
    Mr. Weber. Okay, well, I must have missed that. I thought 
you said you didn't think they could export--basically, I took 
from that you didn't think they could export their horrific 
deeds to the United States. You are saying you believe they 
can?
    Mr. Jones. Well, what I noted, and it is in the testimony, 
is that the mall attack does demonstrate an ability to conduct 
operations outside of Somalia. What I haven't seen much is 
evidence of an interest in exporting those capabilities to the 
United States.
    Mr. Weber. Okay.
    So they have a recruitment system that they use, where they 
actually actively recruit people in person and then they do it 
on social media. Could you hazard a guess, is it 50/50, 
percentage-wise? Is it 10 percent in person, 90 on social 
media?
    Mr. Jones. I couldn't give you a percentage. I would say it 
is probably quite large on social media.
    Mr. Weber. Okay.
    Mr. Jones. I could not give you a percentage, though.
    Mr. Weber. Okay.
    And, Mr. Borelli, I think you said that there is about--or 
I have seen the figure, there are 7,000 to 9,000 fighters, and 
I heard 5,000 being bandied around as I came back in from 
getting some coffee. Is 7,000 to 9,000 fighters still an 
accurate estimate?
    Mr. Borelli. I don't believe I was the one who commented on 
the number of fighters----
    Mr. Weber. No?
    Mr. Borelli [continuing]. So I will defer to my colleagues.
    Mr. Weber. Anybody?
    Mr. Downie. It is virtually impossible to know. I have seen 
various figures, ranging from 5,000 to 7,000. But this is a 
very amorphous organization, and people drift in and out. And 
the wing that we should be particularly concerned about, the 
international jihadist wing, would be much smaller than that, I 
would imagine. But these are guesstimates.
    Mr. Weber. Okay.
    And then also a question for you, Mr. Borelli. My youngest 
son is in the FBI, by the way. So we appreciate your service.
    Who monitors the historical schedule, if you will? 
Terrorism is on the rise. So there has to be a list, chart, 
call it whatever you want to, of the countries, you know, the 
incidents, who is involved, the number of deaths. Who monitors 
that?
    Mr. Borelli. I think multiple agencies monitor that within 
the intelligence community. Certainly, FBI headquarters keeps 
statistics on all these--the number of terrorist groups and the 
number of estimated fighters and the different attacks that 
they have been responsible for. But also CIA, DOD, multiple 
agencies keep statistics on this.
    Mr. Weber. There is a ranking of the most credible threats 
to the least credible, is there not?
    Mr. Borelli. There is, and I believe that comes out under 
the authority of the DNI. I believe that is correct.
    Mr. Weber. Okay. Well, who monitors that? As a group begins 
to move up that ranking, who gets that red flag?
    Mr. Borelli. I think, and I will also defer to my 
colleagues, but it is constantly reassessed, at least on a 
yearly basis, where the intelligence community looks at all of 
the factors--you know, intent, capability, which groups are 
moving up, moving down--and they are constantly being 
reassessed for the priority and the amount of resources that we 
must direct at those groups.
    Mr. Weber. And is that information, to your knowledge--or, 
Dr. Jones, would you like to weigh in on that? No?
    Mr. Jones. I think that is correct.
    Mr. Weber. I am sorry?
    Mr. Jones. I don't have anything further to add.
    Mr. Weber. You think that is right.
    Mr. Downie?
    Okay. Is that information shared with other agencies? And I 
don't mean just U.S.--well, I do mean U.S. agencies, of course, 
but I also mean internationally.
    Mr. Jones. I can't comment on how much is shared 
internationally, with two exceptions. One is documents, 
obviously, in particular in the Four and Five Eyes communities, 
they are shared closer with the British, the Canadians, the 
Australians, and then New Zealand.
    I would also point out, at least when I served in 
government, there were regular national intelligence estimates 
on the threat to the homeland that were combined by the 
National Intelligence Council. And so it included the 
assessments of all agencies.
    Mr. Weber. I was the vice chair of the Texas borders 
committee in the Texas legislature. And Steve McCraw, a former 
FBI guy, now director of DPS, said that there were 70, if I 
remember the numbers correctly, sects, s-e-c-t-s, of eastern 
religions coming across our southern border.
    Mr. Borelli, do you have any knowledge to that?
    Mr. Borelli. I don't have any knowledge to that.
    Mr. Weber. Dr. Jones?
    Mr. Jones. I can't confirm that. I mean, we have a lot.
    Ms. Ros-Lehtinen. The gentleman's time has expired.
    Mr. Weber. Okay. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Weber.
    We thank our witnesses for their time today, and for their 
excellent testimony. This is obviously a serious threat we are 
going to stay on top of, and the committee will continue to 
monitor the situation.
    And, with that, the hearing is adjourned.
    Thank you, gentlemen.
    [Whereupon, at 12:13 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
